     HOME TESTING DEVICES:

 FDA CLEARANCE AND MONITORING

           ACTIVITIES





      J.VJC'.t.
  io "i




  Ol-"".O


OFFICE OF INSPECTOR GENERAL
OFFCE OF ANALYSIS AN INSPECTIONS
                                   OCOBER 1989
    HOME TESTING DEVICES:

FDA CLEARANCE AND MONITORING

          ACTIVITIES





                  Richard P. Kusrow
                  INSPECTOR GENERAL




OAI- 12-89-0136                       OCTOBER 1989

                                                      ..............
                                                       .........
                                            ...... ...... ........ ......    . .............
                                                                               . . . . . . . .......
                                                                     . . . . ......            .......
                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .




                                             TABLE OF CONTENTS



EXECUTVE SUMMARY

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 . . . . . . . . . . . . . . . 1





          Background

          Purpose

          Methodology

FINDINGS

RECOMMENDATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
ENDNOTES. . . . . . . . . . . . . . . . . . . . . . . . . .
                              EXECUTIVE SUMMARY


PURPOSE
The purse of   ths studywas to assess the aduacy of the Foo and Drg Admstrtion
(FA) clearce procss in ensurg the safety and effectiveness of home testig kits and the
degr to which their effcacy is monito once avaible for sale. Ths inspetion was
reuested by the Chai,     Subcommtt on Reguation and Business Opporties,
Commtt on Sma Business. U. S. House of Representatives.
BACKGROUND

Hom use medca devices. lie    prfessional use   mecal devices. must be clear   by    the FDA
prior to maketig. Both home use and professional use medcal devices ar    reviewed by
FDA    acorg   to the Medca Device Amendmnts of 1976.

The Medcal Device Amendmnts to the Foo Drg and Cosmtic Act enacte in May 1976
reui    the FDA to classif al devices in commercal distrbution pror to May 28. 1916 as
Cass I, norm devices dendig on the level of control     nee  to ensur their safety and
effectiveness. Cass I devis ar those devices for which genera contrls (such
prhibitions agaist adultetion and misbradig and adernce to goo maufactug
prtices) ar sufcient   to ensur their safety and effecveness. Cass n devices ar     those
devices for which peorce stda.          in adtion to gener contrls, ar     necessar to
                                                                    which inaduate
ensur their safety and effecveness. Cass m devices ar   those for
inortion exits to detee if gener contrls and         peorce stda ar sufcint
ens their saety and efecveness and therfor reui prmat apprval (PMA).
The Act fuer sped that maufac wihig to intruce a device into the maket
subsequent to May 28, 1976 ar  reuir     to mae a prmat      notication (SI0(k)) to the
FDA prior to such matig.        The prmaket noticaon must establish that the new device is
substatially equivalent to a devi on the maet pror to May 28. 1976. or a device maete
after that date and plac into Cls lorn (a prcate device). If the device is found
substatialy equivalent to a prcate device. it is placed in the class in which its precate
device has ben plaed If FDA fids the device not substatiy equivalent, or substatialy
equivalent to a Class il device. a PMA isreui
If a   maufac wihes to maket a hom use testig devi. the fi            must submit the
necssar doumntation to FDA unde the StOCk) or PMA proess just as it would if the
product were intende for prfessional use. For maufactu wishing to maket home use
in-vitr diagnostic devices (such as prgnancy tests). the FDA has prvided  dr      gudace on
how they may   adss    concers   relatig to prper and appropriate use of the test by
consumers.
Once devices ar   clear for the maket, FDA monitors their performce   prmaly though
the Device Experience Networ (DEN) and insptions of manufactung facilties, operations
and reord. The FDA may also act on inortion it reives on device safety and
performce from other sours, such. as the Consumer Pruct Safety Co
                                                                  mmmi ssion.



FINDINGS

            Although home use testig devices ar ready available to consumers, and a
            signcant numbe of consumer use such tests,     liteinoration is avaiable
            on why, and how effecvely, consuers use some of these tests.

            The assoiation reprsentaves we    inteewed believe tht FDA ha genery
            acted cautiously and apprpriately in applyig the Medcal Device Amendmnts
            of 1976 to home use tests. Their concers !evolved arund (1) how to ensur the
            reliabilty and prpe interptaon of test !esults obtaed in the home1Ud (2)
            how FDA wi!eac to the prposed maketig of cert home tests (such as
            tests for str and the mv vis) which would have serous repercussions for
            individual and public heath if false !esults ar obtaed or prper follow-up does
            not   ta  place.

            As with prfessional us Oass n   devices, no   peorce stada have ben
            develope for home testig kits which ar   categor as Class n devices.
            The FDA ha given signcat atntion, and athed         considele impoce,
            to maufactur labelig of home use medica tests.


RECOMMENDATIONS


            The FDA should devise ways to incras its knowledge concerng actual
            consumer expriences with home use testing devices.


             The FDA should place contiuing emphasis on consumer field evaluations to
             ensur the accury and !eliabilty of home testig devices.

             The FDA should contiue its effort to work with maufacturs to imprve
             pruct design, labelig and instrctions in  or    to incras the public s abilty
             to approprately use the home testig kits it clea.
AGENCY COMMENTS

The Ofce of Insptor Gener solicited comments to the     dr    of ths repo from the
Assistat  Secta    of Health. The Public Health Servce (PHS) responded with a number of
tehnical commnts which we have   incorte       in the fial report The tehncal comments
were helpful in clarg FDA' s role and activities in regar to home testig devices.

The PHS   agr with th reommendations contaed in the drt repon, although it
questioned the avaiabilty of the necssar resours at FDA to implement the
reommendations. Agency commnts regardig these reommendations ar reproduced in the
repo
The PHS   disagr with a four reommndation contaed in the dr of the repo which
suggeste th the FDA prse a legislative chage to reui that al devices be substatiy
equivalent to a cmrntly maketed device, rather than a pr- 1976 device, in or to ensur
that devices enteg the maket incorte tehnologica advances ma since 1976. Ths
reommndation was fit     ma to the Congrss by the Genera Accountig Ofce in 1988.
The PHS   ared that such a change would fudaentay alte the clasion and
regution of medcal devices. Furer, the PHS ared tht no evidence of a " tehnological
lag" suggestig the nee for such a chage had ben   doente  Regaress of the possible
merits of such a change, we agr with PHS   th insufcient justification for such a
reommndation has ben prsente in th
reommendation frm our fial report
                                         re      Consequently we have delete the
                                        INTRODUCTION


BACKGROUND

Results reeived   from   medal tests ar                          and tratmnt of diease
                                           a crtical pan of the diagnosis
and iless. Conseuently, it is impot for proper diagnosis and trannent that such tests
as accurte as possible. In 1988, the Offce of Insptor Genera (OIG) issued repor which
descbe pratices in trtiona labotories and physician offce laboratores (PLs) that
comprmised the integrty of medal testig. Due to the concerns regardig the accury and
relibilty of meca testig expsse by the OIG and other, the Congrss passe the
Clca Larary Imvement Act Amndmnts of 1988 (CL). The Act moded
qualty assurce conttls and estalished a new system of Fedra regution of medcal
testig.

However, not al    me      testig tas pla inde the hospita, independent laboores, and
physicis ' offces to which these new reuiments apply. May Amcans engage in some
son of mecal testig in the privac of their own homes. It is          estite
                                                                     that 20 percent of
   S. households use at least one home testng pruct, accountig for industr sales of $60
to $800 mion anualy. Analysts have           prectthat al Ameran households wi engage

reguly in home testig of so          so   by the year 200.

Mecal testg devices or tehnology intende for home use var in complexity, design and
application. Genery they ar categor into              th tys.
                                                           Monitog devices aid
indiviuals in ongoing assessmnt of a chrnic condition. These devices include bloo
prssu monito use by hypnsives to monito their own bloo prssur and glucose
monito use by diabetics to monito glucose levels in their bloo or ure. Scrnig
devices   scn   for the prsence or absence of an unexpete condition or dise; these
include tests to detet colon cace in assymptomatic individuals. Diagnostic tests aid
individuals in identiyig the presence or absence of a          susected       condition or disease.
Exales of diagnostic tests   ar   pregnancy         test and tests      tourar trt
                                                                           detet              inections.
Genery health ca expe exprss mor conce regarg dignostic tests than                          scnig
or monitorig tests, since the forer ar mo likely to be use by individuals with symptoms
of a cenn condition or diseas who ar using the test pror to (or instead of) consultig a
physician for diagnosis.

Whe home use tests may not dier substatialy from prfessional use tests in purse or
tehnology, sever import distictions do exit. A physician peonng a medcal test will
use the results of the test along with his or her physical examaton of the patent, knowledge
of the patient mecal histo, and results of other medcal tests to           ma
                                                                            a diagnosis or drw
a conclusion. The medcal test wi be
                  trg                      peor      by a heath car professional with
experience and
adterig
                           collecting samples, intrucing reagents into the
                the test. However, as the Foo and Drg      Admnistrtion  (FA)
                                                                                 spn
                                                                                 has
                                                                                     and
                                                                                     pointed out,
consumers using the same mecal test (1) may       unable to evaluate test results in light of
other consideraons such as physical condition or famy history; (2) might perform the test
incortly or drw inapprprte conclusions frm results; (3) may not tae the necessar
follow-up action; and (4) may not collect and handle boy speimens corrtly.

Pre-M    tlting   Clearance

Home use medcal devices. lie prfessional use medcal devices. must be clear by the FDA
pror to maketig. Both home use and professional use medcal devices ar reviewed by
FDA accordig to the Medcal Device Amendmnts of 1976.

The Medcal Device Amendmnts to the Foo Drg and Cosmetic Act enacte in May 1976
reui     the FDA to classify al devices in commeral ditrbution prior to May 28, 1976 as
Cls I. n or il devices dendig on the level of control           nee
                                                              to ensur their safety and
effectiveness. Oass I devices ar those devices for which gener contrls (such as
prhibitions agaist adultetion and mibrdig and adernce to goo                    maufacg
pratices) ar sufcint to ensur their saety and effecveness. Cass n devices ar those
devices for which   peorce    stdads. in adtion to gener contrls, ar necssar to
ensur their saety and effectiveness. Cls il devices ar those for whih inuate
inormtion exits to determe if gener contrls and performce stadads are sufcient to
ensu their safety and effectiveness and therfor reuir prmaet apprval               (PMA).


The Act fuer sped that         maufrs       wihig to intruce a device into the maet
subsequent to May 28, 1976 ar   reui ma  to        a premaet notication (SI0Ck)) to the
FDA pror to such    matig.    The prmaket notication must establish that the new device is
substatialy equivalent to a device on the maket pror to May 28. 1976, or a device maete
after that da  and plac into Cls lorn (a       prcat   device). If the device is found

                  pla prca
substatiy equivalent to a            device, it is plac  in the class in which its prcate
device has ben          If FDA fids the device not substatiy equivalent, or substatiy
equivalent to a Cls il devi, PMA is      reui
If a   maufactur wihes to maket a home use            testig device, the   fi
                                                                         must submit the
necessar documntation to FDA unde th         SI0(k)      or PMA press just as it would if the
product were intended for professional use. For maufacturs            wishig to maket   home use
in-vitr diagnostic devices (such as prgnancy tests), the FDA has prvide          dr
                                                                                 gudace on
how they may    adss  conces     relatig to prop and  apprpriate use of the test by
consum. The FDA suggests that        maufac       conduct consumer field evaluations to test
the accury of their tests in the hands of intende use; incorrate an internal qualty
contrl test; and design approprite and understadable labelig. Maufacturs must also
adere to goo maufactug pratices and prhibitions agaist misbrdig and adulteration
that apply to the maketig of any mecal device. 3
Post-Marketing Surveillance

Once devices ar clear for the maket, FDA monito their performce priy though
the Device Experience NetWor (DEN) and inspetions of maufactug facilties, operations
and reor. The FDA may also act on inortion        it reeives   on device safety and

performce frm     other soures, such as   the Consumer   Pruct Safety Commmi ssion.
The DEN is a centr repositor for the collection and assessment of problem repons
concerg medcal devices reived primaly frm the Medcal Device Reportng system
(MR) and the Medcal Device and Laborator Product Prblem Repog               Prgr  (PRP).

of device problems li
The MDR system, establihed in 1984, is a madato system of        reg    by maufacturs
                          to deth, seous injur, or device maction that might contrbute
to deth or serious injur. The PRP, established in 1976, is a volunta system of reportg by
heath   ca prfessionas of any device problems they believe desee attntion by FDA.


PURPOSE
The pmpse of ths stdy was to assess the aduac of FDA' clearce            prss in ensurg
the safety and effecveness of home testig kits and the degr to which their effcacy is
monito once avaible for sae. Ths inspeon was reueste by the             Chai,
Subcommttee on Reguation and Business Opponities, Commttee on Smal Business, u.
House of Reprsentaves.


METODOLOGY
In   or to gather inortion to adss the questions above, the 010:
              inteewed a numbe of pens reprsentig the FDA, parcularly in the
              Center for Devices and Radological Health (CDRH, on the the 510(k) process
              and FDA' s Device Exence NetWork;

              inteewed reprsentatives of prfessional assocations, includig the Amercan
              Pharutical Association, College of Amrican Pathologists, the American
              Medical Assoiation, the Health Industt Manufactu Assocation , and the
              Amercan Public Health Assoiation concerg consumer use of home testig
              devices and the FDA' cleace of such tests;

              visite 34  pharaces in eight cities (Boston, New York, Phiadlphia, Atlanta
              Chcago, Dallas, Kasas City, and San Fracisco) to assess the relative
              availabilty of home use testing devices and kits;
reviewed a radom sample of 510(k) submissions made for home test devices;

reviewed complaits reived though      the Medical Device Reportg system and
the Prblem Pruct Repog          system concerng in- vitro diagnostic proucts
(pfessional and    home use);

analyzd a samplig of test instrctions for home use medcal tests for content
and readabilty; and

reviewed applicable regulations and FDA gudace for manufactu of home
use testig kits.
                                         FINDINGS


Although home use testing devies are readly availe to consumers, and a signifant
number of consumers use mch tests,    lid    informatn is availale on why, and how
effectively, consumers use some of thse tests.

As discusse prviously, may Amans test themselves in their own homes, and their
numbe is expte to grw. A public poll conducted by the Roper Organzation in 1986
found that 12 percent of the 1,997 adults contate had used a bloo prssur test device at
home; 7 pent     had use a bloo sugar meurment device at home; and 5 percent had use
a colon cancer test kit at home. Ninepent     of the women contate in the pollg ba use
a prgnancy test at home.

Home testig kits of varous tys ar     rey    avaiable to consumer. Of the 34    phares
we viite in the cour of work on th study, al caed at leat one        ty   of in-vitro home
testg kit. Al but one  phay       sold prgnancy tests; 28 of the the 34 (82 peent) sold
ovuation monitorg test. Likewise, 82 pent of the phares we             vite    also sold some
kid of glucose or sugar testig kits (bloo or ure). Ha of      the phares     we   viite sold
colorta scrnig kits. Many of the pharsts we visite also sold devices such as
glucose monitorig devis and bloo prssur monitor.

Whe glucose monitorg in the home is a widely acpte          form of self-assessment and
monitog for dibetics and extensive docentation exist to suppo its use, litte
inortion exits as to value and us of other tys of pructsarcuarly diagnostic
testlUhas          by the consuer without consultaon or supervsion by a health car
professional. For example, ar women who use at- home prgnancy tests delayig       imrtt
visits to their physicis or sekig   ca ealier as a result of their use of a home test'? Do such

women purha home kits beause they ar mor convenient or less costly than going to a
physician, beause they desi prvac, or beause they ar cuous? Would women who buy
pregnancy tests se a .physician inste or forgo the viit altogether, if the home test wer not
avaiable'?

Doumentation that does exist regarg consumer expeences with varous fors of home
testig is lite  For examle, the Rope Oranzation poll found that between 83 and 90
percent of adults who had use home testig devices found them usefu. However, the Roper
pollsters did not ask if the tests contrbute to ealy identication of a condition or dieas,
and varances in individual definitions of the word " useful" mae it diffcult to assign
meang to ths statistic. A surey of physicians found that over hal (and over 90 percent of
the obstetrciangyecologists sueyed) had reived offce visits from individuals due to
home tests; 5 but1he number of individuals who ar falsely reassur by an incort result and
fai to consult a physicia for tratment, or postpne that trtment whie the prblem persists,
is unkown.
Contrlled studies of lay pens ' expences with prgnancy tests have provided some
trublig results. For examle, one stdy of 109 women performg home pregnancy tests
found kit acury ragig frm 46 peent to 89 percnt, in contrt to maufactus clai
of accury avergig 97 percent. 6 Another study found that 9. pent of results obtaed
by laypns with one home test kit, and 12.  pent      of results obtaed by the sam grup

with another test kit, diere from the results obtaed on the same samles of ure by
chemical tehnologists using prfessional use tests

The FDA itslf reeives ver litte inortion on the experience of consumrs with cenan
tys of home use devices. Based on data provide by the FDA, only 18 report reeived
thugh the Medcal Device Reportg (MR) progr since 1984 and the       8
                                                                        Problem
                                                                      Signcantly mor
Repog    Prgr       (pRP) sice 1976, conce at-home pregnancy tests.
complaits, numberig in the thousands, have ben logged conceg glucose monitors and
strps for ure or bloo testg.  Accg        to FDA offcis, most complats and inortion
reived thugh the MDR and PRP systems come from heath car prfessionals and
maufactu, not consum. Unless a consumer is knowledgeable or consults a health car
prfessional (as in the cae of dibetis using glucose monito), a negative expence with a
home use testig device is lily to go unpo       to the FDA.

Home use tests account for Il smal percentge of thvies cleard urur the Medial Device
Amendents.
Home test devices constitute a sma poon of FDA' s tOta activity in prmaket notication
and clasifcaton. Out of 17, 416 " substatialy equivalent" deions ma      by FDA between
1985 and 1988, 51 (or less than hal a peent) wer home testig kits or  devices. Between
May 28, 1976 and Januar 1, 1989, FDA   clea     128 submissions for home use test kits,
avergig 10 eah yea.


Of these 128 510(k) submisions   clea at leat 38 (30 pent) wer at-home prgnancy
                        rede wer tests to detet
tests. The majorty of the                       levels of glucose, ketOne, and other
elements ofintcst in the mie and bloo Otersclear thugh the 510(k)        press durg
ths peod wer tests to dete hiddn bloo in the stool and ovution    prcto.
Two tests to detet gonorea in maes wer   clea       by FDA dmig th peod one in 1982
and another in 1984. As a communicable diea, gonorrhea can be sprad to other
individuals frm a carer if he is not prpely counled and  trte      to avoid contaatig
other. Accorg to FDA and other sours, these kits ar not cunntly marete 9 In mor
rent FDA deisions regarg two other home tests for comuncable        dises-ne
detect sttptococcal antigen, and another to detet the prsence of the mv vis-the agency
has determned that tests ar not substatialy equivalent to any prcate device. Both tests
ar now being conside with the PMA pross.
It may be that the HI and strp tests signal a change in the kinds of home testing devices
FDA wi have to review in the futu: diagnostic tests for communcable diseass of all kinds
(includig sexualy trsmtt dieas such as syphills and herps) as well
noncommunable dieas. Of cour, FDA's desions regardig these two pructs wi
liely have a substatial imact on futu development of          simproducts.

The associton representves we        intervwed belive that FDA has generaly acted
cautiusly and     approprily in applying the Medical     Devie Amendments of   1976     to home
use tests.

The assoction reprsentatives expssed gener apprval of FDA' cour to date in clearg
medcal devices for home use. These     exp        comende FDA for its public heargs on
home tests in    1985  and on the home test kits for the HI vis in 1989, at which the agency
solicite public commnts and opinons regarg the usefuess, benefits and lits of home
use devices and the development of its policies for clearg such devices. The major concerns
exprsse by those intervwed wer (1) how to ensur the reliabilty and prpe intetation
of test results obtaed in the home and (2) how FDA wi react to the prpose maretig of
ce          hom tests (such as test for s1r and the HI vis) which could have seous
repeussions for individual and public health if false results ar obtaed or proper follow-up
dos not      ta plac.

Pary in respnse to these kids of conces, FDA    releas its drt gudace
maufactu of        home in-vitr diagnosti proucts (ls)
                                                       lO in
                                                             Novembe 1988,            solitig
public commnt. Amng other thgs,         FDA indicates th it       wi reui
                                                                        consumer field
evaluatons and    wi   conside questions of risk and benefit assoate with maketig an
to laypns when assessig S10(k) submisions for hom test devis.

Whe most of the individua we inteewed found ths approach renable, at least one
maufacg fi comntig on the gudace has questoned whether the risk/nefit
analysis constitutes a "mi-PMA" with the SIO(k)      prss.      In respnse, FDA offci we
intervewed suggeste that   an assessment  of risk and benefit constitutes a proper par of their
compartive analysis of a device s saety and effectiveness. For ths reason, the drt guidace
states that "considetion of rik and benefit is inernt in the evaluation of safety and
effectiveness" and encourges maufactu of home testig pructs to submit inortion
on risk and benefits as par of their S10(k) submisions.


Whe FDA has ben crtici by som for reuirg to much data to suppon the S10(k)
submissions for home use pruct,      other have questioned whether they have asked for
enough- whether such devices should be clear        by FDA at al. The Amercan Public
Health Assoction, for examle, has wrttn to FDA that it has strng reserations concerng
home testing, and suggests that " (h)ome testig by consumer should be lited to on-going
monitong activities unde the supervion of a physici. " The Amcan Pharutical
Assoction suggests that     ce tys of home testig devices be distrbuted only though
licensed health car prfessional, such as pharists or physicians.
        ...                                                                  ...




Medical tests ar generaly .velopedfirstfor professional use, and             .sign
                                                                              laer modijUd            in


or laling               home environments. If such modifiatons and
                10 be used   in                                                          th changes


condins of use do not rae new ulUwered questins of safety and effectiveness, FDA
ma .termne tlu the home use is subsltly equivakntlo the professina use .vice.
As with any medcal device submitt thugh the 510(k) proess, the question of whether
new home test is substatiy equivalent to a prcate device is the              pri
                                                                        point of inqui.
In determng whether a device is substatially equivalent, FDA has considerable latitue
unde the Medcal Device Amendments. Substatial equivalence was defied in the Repon by
the Commtt on Intetate and Forign Commer on the Medcal Device Amendmnts of
1976 as:

              not.. so na"ow as to refer only to deices tha are idntical to maketed
        deices nor so broad      as to reer to deices which are intendd to be used
       for th sam puroses as maketed           prodts...

Congrss chalenged FDA to          st    consctive midde cour          in mag deteations of
substatial equivalence. The       Cott      repo went on to say       th "         the   te (substati
equivalence) should be constned nawly wher necssa to assur the safety and
effectiveness of a device but not narwly wher diernces between a new device and a
makete device do not relate to safety and effectiveness.

In spite of the issues descbe previously in ths repo that are when a device is
maufactu for home use, rather than prfessional use, FDA may ultiately                  that a  detee
home-use device is substatiy equivalent to a prfessional-use device. The FDA dos not,
for exale, conside that the intende use of a prfessiona us device and tht of a home use
device is necssary, or by defition, diernt. (Unde FDA' prurs, if the intende
uses of a new and curntly makete device ar diernt, the new device is automaticaly
demed not substatiy cquivalent.) Rather, FDA assesses how the diernces between
home use device and a         preca
                                 device for prfessional use (in tehnologica charteristics
or the change in   condtins of use) afec saety and effectiveness.

The FDA states in its drt guidace to maufactu: "When the use of an in- home IV can
be demonstrte to be substatialy equivalent, in          tes       of safety and effectiveness, to a
clical1abotor device when used by a heath professional, and the device meets
labelig and other.. .ruirments, it wi genery satisfy reuiments for maket clearce.
The FDA prposes in ths document to          adss         the issue of safety and effectiveness of home
IVs in par by suggestg that maufactu conduct consumr field evaluations
demonstrtig the abilty of intended use          U1sisted       peor
                                                                to          the test accurtely following,
the manufactUer s instrtions provided in the labeling.              The doumnt does not speify to
what extent accury (however meaur) obtaned by consumer conductig the home test in
the field evaluation can deviate frm the accurcy obtaed by heath car professionals using
the clical labotor device and stil be considere acceptable for the purses of
demonstrtig substatial equivalence, nor ar       detaed   stada provide for the conduct of
consumer field studies.

As with all medical devies, perfomunce standads have not yet        been developed for   Clas


home tests.

VlIy al home use devices clea by the FDA since 1976 have ben pla in Clas lor
Class IT. However, no peorce stadads have ben develope for any Class II devices
(pfessional use as well as home use). The FDA estite to the Genera Accountig Offce
(GAO) tht development of peorce stada for Class II devices would tae 50,
              instead it relies on its own drt guidace and volunta stadads to judge the
           11
sta year;
peorce of medcal devis.
As a resut, no home  testig devices     ar subject to spec peorce stada. The GAO
                                                                     stada were
pointe out prviously in its 1988 report on medcal devices that if such
develop the perforce of new devices could be meme agaist the                 stada rather
than a prcate device.

The FDA, in comments to the    dr re         pointe out that whi   peorce stada         have
not ben develope for Class II devices, "FDA has a     grte   insptional fruency for Class
IT devices " and " Class II (and Cls II devices often have a higher prorty than Class I
devices for other reguator and educaonal actions.... " The agency cite its device priorty
system unde which    cer       devices ar selecte and tagete for attntion. The FDA also
discussed in its comments "altetive meurs (to the settg of performce             stada)
resolve prblems with Class II devices " including the use of volunta     stada  mentioned
abve, edcaonal     prgr,         saety aler, and labelig regutions and gudace.


The FDA 1u given signiJktl Ilntion,    athedII             consirable importe,
manuflltuer /aUng of hOlM rie IMdiai tests

For any medcal device, maufactu must give "aduate ditions for use. " The 1988
FDA drt guidace to manufactu discsses how             maufactmay meet the test of
 aduate ditions for use" when developing labeling for home use diagnostic devices.

Ou review of 510(k) submissions found that FDA reviewers often       reuir        labelig changes
frm maufactu to improve use understadig of instrctions                and  the  lits  of the test.
Th digence on the par of FDA reviewer has resulte in a degr of conforty and ea of
undetadig in product labelig. Our review of labelig and instrctions for six at-home
pregnancy tests, for examle, revealed that instrctions fruently (1) include step-wise
ditions with pictors; (2) ar wrttn at a relatively low (8th       gr)       readng level; (3)
                                                                             and (5) suggest
discuss lits of the test; (4) discuss how false results might be   obtaed
consultation with a physician if the test is positive, and retestig if the test is negative and
symptoms persist.
Cena diernces do remain. Only 2 of the 6 test instrctions     revealed   test accuracy
obtaed by consumer in field evaluations as compar     to accurcy obtaned by tehnicians
using the test in laboratoes, with the higher accury ratigs obtaed in the laboratory either
most promiently or exclusively displayed in all six tests. Only one pregnancy test discussed
the nee for women testig positive to      refr from certn behaviors, includig smokig
drg,      pendig consultation with her physician.

The FDA is now in the procss of completig a study on hum factor in bloo glucose
monitorig, which concentrtes in par on " the quality and quantity of instrctional material
avaiable to meter use for  leg    prpe mete operaon and matenace. ,,
                                                                             12 The study

also assesses the design of varous bloo glucose meters and the extent to which their design
helps or hide operation by lay use. The FDA expets to issue a fial repo on the study
in Octobe 1989, and to shar the results (includig suggestions for imrovig instrctions and
instrent design) with bloo glucose maufacturs and prfessional assoations at varous
foru begig        in the fal of   1989.
                                 RECOMMENDATIONS


The FDA should devie ways to increase its knowledge concerning actual consumer
exprinces with home use testing devies.

The DIG plans to conduct in consultation with IDA, a follow-up study in ths ara which
include a radom telephone surey of consumers to       adssquestions such as the extent of
use of home use in-vitr procts; the rage of deisions mad by consumers as a result of
testig; and the value consumers se in such tests in monitorng or assessing their own health
sttus. The FDA offcis we spke to         agrthat such a surey would be usefu
developing policies for the cleace and post-    matig sueilce       of home testig kits.

The FDA should consde adtiona ways of          obtag inormtion on user experience,
includig lite one-ti coove ventus with maufactu
inn in packagig adsse to FDA (p-identied with lot numbe, pruct
                                                                postcar
                                                               na,
                                                                       to include a
                                                                                        and other

identig inortion) conceg cosumer ' safacon and expnces with cer
kids of proucts.

The FDA might also conside reuig maufactu to include in pruct labeling for
ce    home use proucts a telephone numbe and/or         adss
                                                          consumers can use to repo
                complaits to the Unite States Phanopeia (which now reeives such
pruct-spc
complaits   dite    to the MDR and PRP systems) or FDA ditrct offces. We          reogn,
however, that such a step risk some number of inapprprite or nonspeifc contats that
would not contrbute to FDA' undetadig or knowlege of prblems relate to              spec
in-home devis. However, inortion collecte thugh the MDR and PRP systems for
prfessional use devices 

                                                                tag
                                 is a sour of inortion for FDA in          cortive actions to
improve the safety and 
         ffecveness of these pructs. It is reonable to assum that
inoron                                                      siar
                     collecte for home use tests would prve of        value.

PHS Comment


We generay concur. We      agr that more could be done in this ara and, in fact, ar assisting
the DIG in conductg their follow-up stdy of consumer use and expeences with home use
testig devices. FDA' s Cente for Devices and Raological Health (CDRH has alady
reived a   dr   statement of wor frm the DIG for a contrt to conduct a telephone surey
of consumers. Whe we believe it would mor apprpriate for the FDA, rather than DIG, to
design and implement such a contr (due to FDA'         prgrtic  respnsibilties and
experience in ths ara), we ar glad to cooperate with DIG in conductig ths prject.


However, absent the DIG effor     FDA does   not have the prgrtic      resours to collect,
                                                    regarng their expeences with home
interpt, and evaluate   dit consume       feeback
testig devices.   Therefore, we do not   agr with other efforts descrbe in this
reommendation. We ar alo   oppose to havig manufactuers insert postcar in their
pructs tht use could use to send experience infonation ditly to us. If just 20 percent
of the U. S. households cuntly use home test kits, ths suggestion could have the potenti to
generate an unageable number of report. We cwrntly do not have the resours to
reive and evaluate that lare an amount of data Maufacturs should be respnsible for
monitog their own products. They ar in a bettr position to evaluate the signcance of
use repo and    ret   faste when an actu problem is identified


For siar reons, we opse                                        a telephone and/or
                               product labelig which would include
adss  consumer could use to repo pruct complaits to FDA, Distrct Ofces, or the
Unite Stas    Phaopeia    Ths would reui a revision in the labeling regulations and
gener a potentiy lae num of consum complaits. We do not have the resources to
handle ths   volum.

However, we would     li
                      to pot that eah FDA Distrct Ofce ha a Consum Affai
Ofce (CAO) to work      diy  with consumrs. The CAOs have        rey
                                                                  access to CDRH and
we have always ben avaiable to help with inquires as necssa. In adtion, FDA field
offces have a  stda  syste for acptig and following up on al consumer complaits.
CDRH reves coies of these comlaits although device complaits ar not numerous.

OIG Response

We apprete PHS concerns in regard to FDA resours that might be reuied to purue
some of the alteatives we suggest However, we contiue to believe that crative strtegies
ca be employe which would not involve a substatial or inapprpriate use of FDA
                exale, use of the postc inse might be implemente on a saple bass,
lite to ce
resours. For
                  kids of pruct. Effor might be      dite at one-    tie, rather than

ongoing, evaluations which would   lit  the numbe of resours    reuirover the long
It is possible that some effor might be contrte out, or funde unde some exitig method
such as the PHS Medca Efecveness Reseh intitive.

It is quite prbable that given                   ar
                                  ts exprtse in ths      the agency could develop other, less
                                                        consumer   experiences which have not
resoure intensive strtegies to    obta  inormtion    on
ocur       to us. Our intent is not to prscbe which strtegies ought to be employed rather, it
is to reommend that workable strtegies be develope If PHS believes that adtional
resoures ar    reui      to car out the strtegies it develops, the agency could resign or
reuest adtional resours.
The FDA should place continuing emphasis on consumer field evaluatns to ensure the
accurac II   reliil of home testng devices.

As previously dicusse varous quality assurce mechansms ar present for medcal testig
in hospitas, independent labotos, and physician offce laboratories. For exale, tests
ar perform by qualed pennel famliar with quality contrl procedurs (such
matanig positive and negative contrls). These contrls ar not prsent in the home
envinmnt, where the test might be caed out under adverse conditions by inexperienced
use.
In ths envinmnt, perforce          sta    would be one tol in helping to ensur a
degr of test safety and effectiveness. Under CUInt law, however, the development of
                                                                                    mium
peorce stada ti       is a      and labo-cnsumg effor Furer, it is probable that more
complex and lie-afecng medcal devices would tae prority in FDA' s effor to develop
       stada
performce             for Oas n meca devices. Therfore, it is      unly     that perforce
stda wi       be develope for home tests in the near futu, unless legislative change occur
 stre prour, lit
to           the
resours at FDA to devote to the
                                 the numbe of devices in Oass n, or plac adtional



Regaress of whether    peorce stada    ar develope for home use tests, consumer
                         ensug
fild evaluations ar the key to                 peor
                                 that a given test       accurtely and reliably in
the hands of consuer. Stada, when and if develope should be tied to the performance
                                                       stada,
of the test in these field evaluations. In the absence of         consumer field evaluations
ca assu    th    the test perfor at lea as well for lay persons as for health professionals.


For th reon, FDA shou focs parcular atntion, as it has begu to do, on ths           ast
the cleace    prss for home use testig devices. The FDA should ensur that such field
evaluations ar conduct in a consistent and statisticaly vald maner. Addtional gudace
frm FDA to   maufac      on how to conduct these trs may be necssar.

Furer, FDA should    reui maufac    to disclose the resuts of consumer field
evaluaons, in undetadable laguge, when discussing the accury of their products.
Such inortion is    imrtt if consumer         fully inormed of the limts of the test
                                            ar to be
                               obtag a false resulL
and the lielioo or possibilty of

PHS Comment


We agr. As note in FDA'          drt guce for home in-vitr diagnostic pructs,      consumer
field evaluations wi contiue to play an importt par in FDA' s assessment of SlO(k)
submisions of home testig    devices.

As tostada for the conduct of such consumer field evaluations, the National Commttben
for Oincal Labotory Stada (NCCL), a national stada-settng organization, has
prsente with prposals frm the Consumer Fedtion of                  America to develop industr

guidelines for   carg out these evaluations.
Varous progr in FDA' s Cente for Devices and Raological Health' s Ofce of Traning
and Assistace ar explorg method to evaluate the accury of home testig devices used
by non-professionals. A rently complete FDA contrt study on Huma Factor Analysis of
Bloo Glucose Monitorng support usabilty testing as a valid tool for use by maufacturs,
and also outles       a method for assessing the usabilty (ofj instrctions for use. In adtion, the
Ofce of Trag            and Assistace ha just complete a revied labelig doument to aid
maufacturs. Finaly, a NCCL subcommtt is developing an industr guidace
document entitled "Labelig of Home-Use In- Vitr Diagnostic Pruct " which complements
and buids on the FDA            dr gudace to maufac of home in-           vitr dignostic   proucts
refernce in the OIG repo



The FDA should         contue      it   effort to work wi IInufacturers to improve product design,
lIling an instrtins in order to increase th                 publk' tliIi to   approprily use
home testing     1c    it clear

Contiued emphasis on labelig                    FDA reviewer of 510(k) submissions is an
                                         consideations by
impot element in ensug that home testing devices ca be use successful by untred
consumers. Without undedable gudace, consumer may misuse the test to the detrent
of their own and (in the cas of test for comunicable diseass) possibly other ' health.

The work of the FDA on bloo glucose monito wi prvide FDA With
inoron      on the lablig and degn of these home us devis. If it is succssfu, the
                                                                                 imt
copetive approach between FDA and bloo glucose maufactm in imprvig pruct
design, labelig and inctions of these pructs would be an apprpr mol for FDA to
apply to other home testig devis.

PHS Comment


We agr. As state in the OIG              re
                                     FDA has worked with maufacturs,                 priy
thugh the 510(k) pross, to                   design, labelig and instrctions. In adtion,
                                        imrove pruct
FDA has worked with varous organtions such as the Health Industr Manufacturs
Assoction (a          tr
                   assocon for a majorty of device maufacturs), Reguto AfaU
Prfessional Socety (a professional soety for regulato              spests
                                                                  in industr), and the

above mentioned National Commtt for Clical Labotor                   Stada
                                                                      (a national
stada-settg organzation) to factate the necessar dialogue for prouct improvement.
pp.




                                             ENDNOTES



1. See Thomas A. Gossel, 
     American Journal of Hospital Pharmcy,          Volume 45 (May 1988),
p. 1119.



2. Foo and Drg Admnistrtion , Center for Devices and Radiological Health, "Assessing
the Safety and Effectiveness of Home Use In- Vitro Devices: Drt Points to Consider,
October 1988.



3. Marketing factors, includig      competitive  pressures and concerns regarng prouct
liabilty, also encourge maufactur          responsibilty in developing and marketig mecal
products for home use.

4. Roper
Report 87­          (Mh      1987).
               Organtion, surey conducted Deember 6, . 1986 to Deembe 13, 1986, Rope


5. M. Rataa, ' 'Diagnostics in Physicians ' Ofces, American Clinical Product Review,
November 1985, p. 12-22.

6. Mar L. Doshi MA, " Accury of Consumer Perfonned In-Home Tests for Early
Prgnancy Detection, American Jourl            of   Public Health,     Volume 76, Number 5 (May 1986).

7. Joycelyn M. Hicks, Ph. D.     and Maret Iosefsohn, M. S., "Reliabilty of Home Prgnancy
Test Kits in the Hads of Layprsons,"     New England Journal of Medicine     (Februar 2, 1989),
      320-321.

8. Ten of these report       were made by phanacists,         four by consumers, one by the
manufactur, and two    by unkown sources. One report was made by a physician who
unsuccessfully used a home pregnancy test to determne the presence of testicular cancer, a
nonindicated use of the test.

                 because individuals could obtain positive test results though home testing
9. States objected
and avoid reportg reuirements imposed on individuals tested in professional health care
envirnments. Manufacturrs of the kits could not be contacted for an intervew.

10. In vitro diagnostic products ar "those reagents, instrments and systems intended for use
in the diagnosis of disease or in the determnation of the state of health in ordr to cur,
mitigate, trat, or prevent disease or its sequelae. Such products ar intended for use in the
collection, prepartion, and examnation of specimens taen from the human body. " 21 CPR
809. 3(a).
11. The General Accountig Offce, Medcal Devices: FDA' s 510(k) Operations Could Be
Improved, GAOIPEMD- 88- , p. 52.

12. Pacific Science & Engineering Group, Inc., "Human Factors Analysis of Bloo Glucose
Monitoring, " Foo and Drg Admnistrtion, Contract 223- 87- 6023.
